CERTIFICATE OF COMPLIANCE
Nos. 19-840, 19-1019
In the Supreme Court of the United States
STATE OF CALIFORNIA, ET AL.,
Petitioners,
v.
STATE OF TEXAS, ET AL.,
Respondents.
STATE OF TEXAS, ET AL.,
Petitioner,
v.
STATE OF CALIFORNIA, ET AL.,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Jeremy Cooper Doerre, Counsel
of Record for Amicus Curiae Jeremy C. Doerre and a member of the Bar of this Court,
do hereby certify that the Brief of Amicus Curiae Jeremy C. Doerre Suggesting
Reversal contains 4,128 words, excluding the parts of the document exempted by
Supreme Court Rule 33.1(d), and complies with the word limitations set out in Rule
33.1(g).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 12, 2020
Jeremy Cooper Doerre
Tillman Wright, PLLC
3440 Toringdon Way, Ste. 310
Charlotte, NC 28277
jdoerre@ti-law.com
(704) 248-4883

